§ 1003.13 Definitions., 8 C.F.R. § 1003.13

Code of Federal Regulations
Title 8. Aliens and Nationality
Chapter V. Executive Office for Immigration Review, Department of Justice (Refs & Annos)
Subchapter A. General Provisions (Refs & Annos)
Part 1003. Executive Office for Immigration Review (Refs & Annos)
Subpart C. Immigration Court—Rules of Procedure (Refs & Annos)
8 C.F.R. § 1003.13
§ 1003.13 Definitions.
Currentness
As used in this subpart:
Administrative control means custodial responsibility for the Record of Proceeding as specified in § 1003.11.
Charging document means the written instrument which initiates a proceeding before an Immigration Judge. For proceedings
initiated prior to April 1, 1997, these documents include an Order to Show Cause, a Notice to Applicant for Admission Detained
for Hearing before Immigration Judge, and a Notice of Intention to Rescind and Request for Hearing by Alien. For proceedings
initiated after April 1, 1997, these documents include a Notice to Appear, a Notice of Referral to Immigration Judge, and a
Notice of Intention to Rescind and Request for Hearing by Alien.
Filing means the actual receipt of a document by the appropriate Immigration Court.
Service means physically presenting or mailing a document to the appropriate party or parties; except that an Order to Show
Cause or Notice of Deportation Hearing shall be served in person to the alien, or by certified mail to the alien or the alien's
attorney and a Notice to Appear or Notice of Removal Hearing shall be served to the alien in person, or if personal service is
not practicable, shall be served by regular mail to the alien or the alien's attorney of record.
Credits
[57 FR 11571, April 6, 1992; 59 FR 1899, Jan. 13, 1994; 60 FR 34089, June 30, 1995; 62 FR 10332, March 6, 1997]
AUTHORITY: 5 U.S.C. 301; 6 U.S.C. 521; 8 U.S.C. 1101, 1103, 1154, 1155, 1158, 1182, 1226, 1229, 1229a, 1229b, 1229c,
1231, 1254a, 1255, 1324d, 1330, 1361, 1362; 28 U.S.C. 509, 510, 1746; sec. 2 Reorg. Plan No. 2 of 1950; 3 CFR, 1949–1953
Comp., p. 1002; section 203 of Pub.L. 105–100, 111 Stat. 2196–200; sections 1506 and 1510 of Pub.L. 106–386, 114 Stat.
1527–29, 1531–32; section 1505 of Pub.L. 106–554, 114 Stat. 2763A–326 to –328.

Notes of Decisions (13)
Current through November 28, 2019; 84 FR 65606.
End of Document

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

28
© 2019 Thomson Reuters. No claim to original U.S. Government Works.

Appendix E
1

§ 1003.14 Jurisdiction and commencement of proceedings., 8 C.F.R. § 1003.14

Code of Federal Regulations
Title 8. Aliens and Nationality
Chapter V. Executive Office for Immigration Review, Department of Justice (Refs & Annos)
Subchapter A. General Provisions (Refs & Annos)
Part 1003. Executive Office for Immigration Review (Refs & Annos)
Subpart C. Immigration Court—Rules of Procedure (Refs & Annos)
8 C.F.R. § 1003.14
§ 1003.14 Jurisdiction and commencement of proceedings.
Currentness
(a) Jurisdiction vests, and proceedings before an Immigration Judge commence, when a charging document is filed with the
Immigration Court by the Service. The charging document must include a certificate showing service on the opposing party
pursuant to § 1003.32 which indicates the Immigration Court in which the charging document is filed. However, no charging
document is required to be filed with the Immigration Court to commence bond proceedings pursuant to §§ 1003.19, 1236.1(d)
and 1240.2(b) of this chapter.
(b) When an Immigration Judge has jurisdiction over an underlying proceeding, sole jurisdiction over applications for asylum
shall lie with the Immigration Judge.
(c) Immigration Judges have jurisdiction to administer the oath of allegiance in administrative naturalization ceremonies
conducted by the Service in accordance with § 1337.2(b) of this chapter.
(d) The jurisdiction of, and procedures before, immigration judges in exclusion, deportation and removal, rescission, asylumonly, and any other proceedings shall remain in effect as it was in effect on February 28, 2003, until the regulations in this
chapter are further modified by the Attorney General. Where a decision of an officer of the Immigration and Naturalization
Service was, before March 1, 2003, appealable to the Board or an immigration judge, or an application denied could be renewed
in proceedings before an immigration judge, the same authority and procedures shall be followed until further modified by the
Attorney General.
Credits
[57 FR 11571, April 6, 1992; 59 FR 1899, Jan. 13, 1994; 60 FR 34089, June 30, 1995; 62 FR 10332, March 6, 1997; 68 FR
9832, Feb. 28, 2003; 68 FR 10350, March 5, 2003]
AUTHORITY: 5 U.S.C. 301; 6 U.S.C. 521; 8 U.S.C. 1101, 1103, 1154, 1155, 1158, 1182, 1226, 1229, 1229a, 1229b, 1229c,
1231, 1254a, 1255, 1324d, 1330, 1361, 1362; 28 U.S.C. 509, 510, 1746; sec. 2 Reorg. Plan No. 2 of 1950; 3 CFR, 1949–1953
Comp., p. 1002; section 203 of Pub.L. 105–100, 111 Stat. 2196–200; sections 1506 and 1510 of Pub.L. 106–386, 114 Stat.
1527–29, 1531–32; section 1505 of Pub.L. 106–554, 114 Stat. 2763A–326 to –328.

Notes of Decisions (38)

29
© 2019 Thomson Reuters. No claim to original U.S. Government Works.

1

§ 1003.14 Jurisdiction and commencement of proceedings., 8 C.F.R. § 1003.14

Current through November 28, 2019; 84 FR 65606.
End of Document

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

30
© 2019 Thomson Reuters. No claim to original U.S. Government Works.

2

8 C.F.R. § 1003.15
§ 1003.15 Contents of the order to show cause and notice to appear and notification of change of address

(a) In the Order to Show Cause, the Service shall provide the following administrative
information to the Executive Office for Immigration Review. Omission of any of these items
shall not provide the alien with any substantive or procedural rights:
(1) The alien's names and any known aliases;
(2) The alien's address;
(3) The alien's registration number, with any lead alien registration number with which the
alien is associated;
(4) The alien's alleged nationality and citizenship;
(5) The language that the alien understands;
(b) The Order to Show Cause and Notice to Appear must also include the following
information:
(1) The nature of the proceedings against the alien;
(2) The legal authority under which the proceedings are conducted;
(3) The acts or conduct alleged to be in violation of law;
(4) The charges against the alien and the statutory provisions alleged to have been violated;
(5) Notice that the alien may be represented, at no cost to the government, by counsel or other
representative authorized to appear pursuant to 8 CFR 1292.1;
(6) The address of the Immigration Court where the Service will file the Order to Show Cause
and Notice to Appear; and
(7) A statement that the alien must advise the Immigration Court having administrative
control over the Record of Proceeding of his or her current address and telephone number and
a statement that failure to provide such information may result in an in absentia hearing in
accordance with § 1003.26.
(c) Contents of the Notice to Appear for removal proceedings. In the Notice to Appear for
removal proceedings, the Service shall provide the following administrative information to
the Immigration Court. Failure to provide any of these items shall not be construed as
affording the alien any substantive or procedural rights.
(1) The alien's names and any known aliases;
(2) The alien's address;
(3) The alien's registration number, with any lead alien registration number with which the
alien is associated;

31

1

§ 1003.15 Contents of the order to show cause and noti...

8 C.F.R. § 1003.15

(4) The alien's alleged nationality and citizenship; and
(5) The language that the alien understands.
(d) Address and telephone number. (1) If the alien's address is not provided on the Order to
Show Cause or Notice to Appear, or if the address on the Order to Show Cause or Notice to
Appear is incorrect, the alien must provide to the Immigration Court where the charging
document has been filed, within five days of service of that document, a written notice of an
address and telephone number at which the alien can be contacted. The alien may satisfy this
requirement by completing and filing Form EOIR-33.
(2) Within five days of any change of address, the alien must provide written notice of the
change of address on Form EOIR-33 to the Immigration Court where the charging document
has been filed, or if venue has been changed, to the Immigration Court to which venue has
been changed.
[57 FR 11571, Apr. 6, 1992, as amended at 60 FR 34089, June 30, 1995; 62 FR 10332, Mar.
6, 1997]

32

2

§ 1003.18 Scheduling of cases., 8 C.F.R. § 1003.18

KeyCite Red Flag - Severe Negative Treatment
Unconstitutional or PreemptedHeld Invalid Ortiz-Santiago v. Barr, 7th Cir., May 20, 2019

Code of Federal Regulations
Title 8. Aliens and Nationality
Chapter V. Executive Office for Immigration Review, Department of Justice (Refs & Annos)
Subchapter A. General Provisions (Refs & Annos)
Part 1003. Executive Office for Immigration Review (Refs & Annos)
Subpart C. Immigration Court—Rules of Procedure (Refs & Annos)
8 C.F.R. § 1003.18
§ 1003.18 Scheduling of cases.
Currentness
<For statute(s) affecting validity, see: 8 USCA § 1229, 1229a.>
(a) The Immigration Court shall be responsible for scheduling cases and providing notice to the government and the alien of
the time, place, and date of hearings.
(b) In removal proceedings pursuant to section 240 of the Act, the Service shall provide in the Notice to Appear, the time,
place and date of the initial removal hearing, where practicable. If that information is not contained in the Notice to Appear,
the Immigration Court shall be responsible for scheduling the initial removal hearing and providing notice to the government
and the alien of the time, place, and date of hearing. In the case of any change or postponement in the time and place of such
proceeding, the Immigration Court shall provide written notice to the alien specifying the new time and place of the proceeding
and the consequences under section 240(b)(5) of the Act of failing, except under exceptional circumstances as defined in section
240(e)(1) of the Act, to attend such proceeding. No such notice shall be required for an alien not in detention if the alien has
failed to provide the address required in section 239(a)(1)(F) of the Act.
Credits
[57 FR 11571, April 6, 1992; 59 FR 1899, Jan. 13, 1994; 60 FR 34089, June 30, 1995; 62 FR 10332, March 6, 1997]
AUTHORITY: 5 U.S.C. 301; 6 U.S.C. 521; 8 U.S.C. 1101, 1103, 1154, 1155, 1158, 1182, 1226, 1229, 1229a, 1229b, 1229c,
1231, 1254a, 1255, 1324d, 1330, 1361, 1362; 28 U.S.C. 509, 510, 1746; sec. 2 Reorg. Plan No. 2 of 1950; 3 CFR, 1949–1953
Comp., p. 1002; section 203 of Pub.L. 105–100, 111 Stat. 2196–200; sections 1506 and 1510 of Pub.L. 106–386, 114 Stat.
1527–29, 1531–32; section 1505 of Pub.L. 106–554, 114 Stat. 2763A–326 to –328.

Notes of Decisions (7)
Current through November 28, 2019; 84 FR 65606.
End of Document

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

33
© 2019 Thomson Reuters. No claim to original U.S. Government Works.

1

§ 1229. Initiation of removal proceedings, 8 USCA § 1229

KeyCite Yellow Flag - Negative Treatment
Proposed Legislation

United States Code Annotated
Title 8. Aliens and Nationality (Refs & Annos)
Chapter 12. Immigration and Nationality (Refs & Annos)
Subchapter II. Immigration
Part IV. Inspection, Apprehension, Examination, Exclusion, and Removal (Refs & Annos)
8 U.S.C.A. § 1229
§ 1229. Initiation of removal proceedings
Effective: August 12, 2006
Currentness
(a) Notice to appear
(1) In general
In removal proceedings under section 1229a of this title, written notice (in this section referred to as a “notice to appear”)
shall be given in person to the alien (or, if personal service is not practicable, through service by mail to the alien or to the
alien's counsel of record, if any) specifying the following:
(A) The nature of the proceedings against the alien.
(B) The legal authority under which the proceedings are conducted.
(C) The acts or conduct alleged to be in violation of law.
(D) The charges against the alien and the statutory provisions alleged to have been violated.
(E) The alien may be represented by counsel and the alien will be provided (i) a period of time to secure counsel under
subsection (b)(1) and (ii) a current list of counsel prepared under subsection (b)(2).
(F)(i) The requirement that the alien must immediately provide (or have provided) the Attorney General with a written
record of an address and telephone number (if any) at which the alien may be contacted respecting proceedings under
section 1229a of this title.
(ii) The requirement that the alien must provide the Attorney General immediately with a written record of any change
of the alien's address or telephone number.

34
© 2019 Thomson Reuters. No claim to original U.S. Government Works.

1

§ 1229. Initiation of removal proceedings, 8 USCA § 1229

(iii) The consequences under section 1229a(b)(5) of this title of failure to provide address and telephone information
pursuant to this subparagraph.
(G)(i) The time and place at which the proceedings will be held.
(ii) The consequences under section 1229a(b)(5) of this title of the failure, except under exceptional circumstances, to
appear at such proceedings.
(2) Notice of change in time or place of proceedings
(A) In general
In removal proceedings under section 1229a of this title, in the case of any change or postponement in the time and place of
such proceedings, subject to subparagraph (B) a written notice shall be given in person to the alien (or, if personal service
is not practicable, through service by mail to the alien or to the alien's counsel of record, if any) specifying-(i) the new time or place of the proceedings, and
(ii) the consequences under section 1229a(b)(5) of this title of failing, except under exceptional circumstances, to attend
such proceedings.
(B) Exception
In the case of an alien not in detention, a written notice shall not be required under this paragraph if the alien has failed
to provide the address required under paragraph (1)(F).
(3) Central address files
The Attorney General shall create a system to record and preserve on a timely basis notices of addresses and telephone
numbers (and changes) provided under paragraph (1)(F).
(b) Securing of counsel
(1) In general
In order that an alien be permitted the opportunity to secure counsel before the first hearing date in proceedings under section
1229a of this title, the hearing date shall not be scheduled earlier than 10 days after the service of the notice to appear, unless
the alien requests in writing an earlier hearing date.
(2) Current lists of counsel

35
© 2019 Thomson Reuters. No claim to original U.S. Government Works.

2

§ 1229. Initiation of removal proceedings, 8 USCA § 1229

The Attorney General shall provide for lists (updated not less often than quarterly) of persons who have indicated their
availability to represent pro bono aliens in proceedings under section 1229a of this title. Such lists shall be provided under
subsection (a)(1)(E) and otherwise made generally available.
(3) Rule of construction
Nothing in this subsection may be construed to prevent the Attorney General from proceeding against an alien pursuant to
section 1229a of this title if the time period described in paragraph (1) has elapsed and the alien has failed to secure counsel.
(c) Service by mail
Service by mail under this section shall be sufficient if there is proof of attempted delivery to the last address provided by the
alien in accordance with subsection (a)(1)(F).
(d) Prompt initiation of removal
(1) In the case of an alien who is convicted of an offense which makes the alien deportable, the Attorney General shall begin
any removal proceeding as expeditiously as possible after the date of the conviction.
(2) Nothing in this subsection shall be construed to create any substantive or procedural right or benefit that is legally enforceable
by any party against the United States or its agencies or officers or any other person.
(e) Certification of compliance with restrictions on disclosure
(1) In general
In cases where an enforcement action leading to a removal proceeding was taken against an alien at any of the locations
specified in paragraph (2), the Notice to Appear shall include a statement that the provisions of section 1367 of this title
have been complied with.
(2) Locations
The locations specified in this paragraph are as follows:
(A) At a domestic violence shelter, a rape crisis center, supervised visitation center, family justice center, a victim services,
or victim services provider, or a community-based organization.
(B) At a courthouse (or in connection with that appearance of the alien at a courthouse) if the alien is appearing in connection
with a protection order case, child custody case, or other civil or criminal case relating to domestic violence, sexual assault,
trafficking, or stalking in which the alien has been battered or subject to extreme cruelty or if the alien is described in
subparagraph (T) or (U) of section 1101(a)(15) of this title.

36
© 2019 Thomson Reuters. No claim to original U.S. Government Works.

3

§ 1229. Initiation of removal proceedings, 8 USCA § 1229

CREDIT(S)
(June 27, 1952, c. 477, Title II, § 239, as added Pub.L. 104-208, Div. C, Title III, § 304(a)(3), Sept. 30, 1996, 110 Stat.
3009-587; amended Pub.L. 109-162, Title VIII, § 825(c)(1), Jan. 5, 2006, 119 Stat. 3065; Pub.L. 109-271, § 6(d), Aug. 12,
2006, 120 Stat. 763.)

Notes of Decisions (107)
8 U.S.C.A. § 1229, 8 USCA § 1229
Current through P.L. 116-72.
End of Document

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

37
© 2019 Thomson Reuters. No claim to original U.S. Government Works.

4

§ 1326. Reentry of removed aliens, 8 USCA § 1326

KeyCite Yellow Flag - Negative Treatment
Proposed Legislation

United States Code Annotated
Title 8. Aliens and Nationality (Refs & Annos)
Chapter 12. Immigration and Nationality (Refs & Annos)
Subchapter II. Immigration
Part VIII. General Penalty Provisions
8 U.S.C.A. § 1326
§ 1326. Reentry of removed aliens
Effective: September 30, 1996
Currentness
(a) In general
Subject to subsection (b), any alien who-(1) has been denied admission, excluded, deported, or removed or has departed the United States while an order of exclusion,
deportation, or removal is outstanding, and thereafter
(2) enters, attempts to enter, or is at any time found in, the United States, unless (A) prior to his reembarkation at a place outside
the United States or his application for admission from foreign contiguous territory, the Attorney General has expressly
consented to such alien's reapplying for admission; or (B) with respect to an alien previously denied admission and removed,
unless such alien shall establish that he was not required to obtain such advance consent under this chapter or any prior Act,
shall be fined under Title 18, or imprisoned not more than 2 years, or both.
(b) Criminal penalties for reentry of certain removed aliens
Notwithstanding subsection (a), in the case of any alien described in such subsection-(1) whose removal was subsequent to a conviction for commission of three or more misdemeanors involving drugs, crimes
against the person, or both, or a felony (other than an aggravated felony), such alien shall be fined under Title 18, imprisoned
not more than 10 years, or both;
(2) whose removal was subsequent to a conviction for commission of an aggravated felony, such alien shall be fined under
such title, imprisoned not more than 20 years, or both;
(3) who has been excluded from the United States pursuant to section 1225(c) of this title because the alien was excludable
under section 1182(a)(3)(B) of this title or who has been removed from the United States pursuant to the provisions of
subchapter V, and who thereafter, without the permission of the Attorney General, enters the United States, or attempts to

38
© 2019 Thomson Reuters. No claim to original U.S. Government Works.

1

§ 1326. Reentry of removed aliens, 8 USCA § 1326

do so, shall be fined under Title 18 and imprisoned for a period of 10 years, which sentence shall not run concurrently with
any other sentence. 1 or
(4) who was removed from the United States pursuant to section 1231(a)(4)(B) of this title who thereafter, without the
permission of the Attorney General, enters, attempts to enter, or is at any time found in, the United States (unless the Attorney
General has expressly consented to such alien's reentry) shall be fined under Title 18, imprisoned for not more than 10 years,
or both.
For the purposes of this subsection, the term “removal” includes any agreement in which an alien stipulates to removal during
(or not during) a criminal trial under either Federal or State law.
(c) Reentry of alien deported prior to completion of term of imprisonment
Any alien deported pursuant to section 1252(h)(2) 2 of this title who enters, attempts to enter, or is at any time found in, the
United States (unless the Attorney General has expressly consented to such alien's reentry) shall be incarcerated for the remainder
of the sentence of imprisonment which was pending at the time of deportation without any reduction for parole or supervised
release. Such alien shall be subject to such other penalties relating to the reentry of deported aliens as may be available under
this section or any other provision of law.
(d) Limitation on collateral attack on underlying deportation order
In a criminal proceeding under this section, an alien may not challenge the validity of the deportation order described in
subsection (a)(1) or subsection (b) unless the alien demonstrates that-(1) the alien exhausted any administrative remedies that may have been available to seek relief against the order;
(2) the deportation proceedings at which the order was issued improperly deprived the alien of the opportunity for judicial
review; and
(3) the entry of the order was fundamentally unfair.
CREDIT(S)
(June 27, 1952, c. 477, Title II, ch. 8, § 276, 66 Stat. 229; Pub.L. 100-690, Title VII, § 7345(a), Nov. 18, 1988, 102 Stat.
4471; Pub.L. 101-649, Title V, § 543(b)(3), Nov. 29, 1990, 104 Stat. 5059; Pub.L. 103-322, Title XIII, § 130001(b), Sept. 13,
1994, 108 Stat. 2023; Pub.L. 104-132, Title IV, §§ 401(c), 438(b), 441(a), Apr. 24, 1996, 110 Stat. 1267, 1276, 1279; Pub.L.
104-208, Div. C, Title III, §§ 305(b), 308(d)(4)(J), (e)(1)(K), (14)(A), 324(a), (b), Sept. 30, 1996, 110 Stat. 3009-606, 3009-618
to 3009-620, 3009-629.)

Notes of Decisions (1389)

39
© 2019 Thomson Reuters. No claim to original U.S. Government Works.

2

§ 1326. Reentry of removed aliens, 8 USCA § 1326

Footnotes
So in original. The period probably should be a semicolon.
1
So in original. Section 1252 of this title, was amended by Pub.L. 104-208, Div. C, Title III, § 306(a)(2), Sept. 30, 1996, 110 Stat.
2

3009-607, and as so amended, does not contain a subsec. (h); for provisions similar to those formerly contained in section 1252(h)
(2) of this title, see 8 U.S.C.A. § 1231(a)(4).

8 U.S.C.A. § 1326, 8 USCA § 1326
Current through P.L. 116-72.
End of Document

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

40
© 2019 Thomson Reuters. No claim to original U.S. Government Works.

3

Amendment V. Grand Jury Indictment for Capital Crimes;..., USCA CONST Amend. V

United States Code Annotated
Constitution of the United States
Annotated
Amendment V. Grand Jury; Double Jeopardy; Self-Incrimination; Due Process; Takings
U.S.C.A. Const. Amend. V
Amendment V. Grand Jury Indictment for Capital Crimes; Double Jeopardy;
Self-Incrimination; Due Process of Law; Takings without Just Compensation
Currentness
No person shall be held to answer for a capital, or otherwise infamous crime, unless on a presentment or indictment of a Grand
Jury, except in cases arising in the land or naval forces, or in the Militia, when in actual service in time of War or public danger;
nor shall any person be subject for the same offence to be twice put in jeopardy of life or limb; nor shall be compelled in any
criminal case to be a witness against himself, nor be deprived of life, liberty, or property, without due process of law; nor shall
private property be taken for public use, without just compensation.
<Historical notes and references are included in the full text document for this amendment.>
<For Notes of Decisions, see separate documents for clauses of this amendment:>
<USCA Const. Amend. V--Grand Jury clause>
<USCA Const. Amend. V--Double Jeopardy clause>
<USCA Const. Amend. V--Self-Incrimination clause>
<USCA Const. Amend. V-- Due Process clause>
<USCA Const. Amend. V--Takings clause>
U.S.C.A. Const. Amend. V, USCA CONST Amend. V
Current through P.L. 116-152.
End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

41
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

